W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

21-163

George Cantu

Providence Hospital, et al.
(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Providence Hospital

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Todd W. Reichert

Date:

8/18/21

Digitally signed by: Todd W. Reichert
DN: CN = Todd W. Reichert email = todd@favros.com C = AD O = FAVROS Law
Date: 2021.08.18 08:09:15 -07'00'

(Type or print) Name Todd W. Reichert
Mr.

Ms.

Firm

FAVROS Law

Address

701 Fifth Ave Suite 4750

City & State

Seattle, WA

Phone

206-749-0094

Mrs.

Miss

Zip 98104
Email todd@favros.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
William C. Budigan

cc:

